COCKLE

2311 Douglas Street * E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B Fe ais contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-125

IRON STONE REAL ESTATE FUND I, L.P.,
IRON STONE REAL ESTATE GROUP I, LLC,
and ANDREW V. EISENSTEIN,
Petitioners,
Vv.
STEPHEN RATNER, AUDREY RATNER,
and DR. ROBERT OSTOYICH,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONSE IN
OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 5265 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this Ist day of September, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Affiant 40024

    

Notary Public
